No. 20-7706

3fn tfje Supreme Court of tfje ®ntteti States;
JaKara Vester,

Petitioner,
v.
Henlopen Landing Homeowners Association,
Inc.; and PREMIER PROPERTY AND POOL
Management, LLC,

Respondents.
On Petition For a Writ Of Certiorari
To The Supreme Court Of The State Of Delaware

BRIEF IN OPPOSITION
David C. Hutt

Counsel of Record
R. Eric Hacker

Morris James LLP
107 W. Market Street
Georgetown, DE 19947
(302) 856-0015
dhutt@morrisjames.com
Counsel for Respondent
Henlopen Landing
Homeowners Association, Inc.

QUESTION PRESENTED
The Delaware Supreme Court dismissed
Petitioner’s direct appeal of the Court of Chancery’s
decision
denying
Petitioner’s
claims
that
Respondent violated the Federal Fair Housing Act
(“FFHA”) and the Delaware Fair Housing Act
(“DFHA”).
The court did not address any of
Petitioner’s federal claims or any questions of
federal law.
Instead, the Delaware Supreme Court dismissed
Petitioner’s appeal after Petitioner submitted four
consecutive opening briefs that exceeded (or
attempted to subvert) the page and word limits
imposed by the court’s rules. Before ordering the
dismissal, the court provided specific guidance to
Petitioner as to how she should correct her briefs,
and the court warned that dismissal could result if
Petitioner submitted a fourth non-compliant brief.
The court’s order dismissing Petitioner’s appeal
rested solely on state law grounds — i.e., Petitioner’s
repeated violation of estabhshed the court’s rules.
Below, Petitioner did not assert that those rules
were constitutionally deficient, and the court did not
pass on that issue, either.
Petitioner presents numerous questions that, at
base, ask this Court to review both her FFHA claims
and the constitutionality of the dismissal of her
appeal. However, Petitioner overlooks the limited
nature of this Court’s review.

Respondent, therefore, presents the question
before this Court as follows: Does this Court have
jurisdiction to review the Petitioner’s federal claims
given that the Delaware Supreme Court dismissed
Petitionter’s appeal for repeated violation of a state
procedural rule and that Petitioner did not challenge
the constitutionality of the rule below?

n

TABLE OF CONTENTS
QUESTION PRESENTED

i

TABLE OF AUTHORITIES

iv

CORPORATE DISCLOSURE

vi

COUNTERSTATEMENT OF FACTS

1

A.

Background of the Dispute...

2

B.

Delaware Court of Chancery
Litigation.................................

5

Delaware Supreme Court
Dismissal.................................

7

REASONS FOR DENYING PETITION

9

C.

A.

B.

C.

This Court lacks jurisdiction over
this case because the Delaware
Supreme Court’s decision rested
solely upon state law......................

10

Petitioner has also forfeited her
right to challenge Delaware
Supreme Court Rule 14, or its
application, in this Court because
Petitioner did not raise the issue
in the Delaware Supreme Court. .

12

This Case is a poor vehicle to
consider the questions presented
in the petition...................................

15

CONCLUSION

19
m

TABLE OF AUTHORITIES
Page(s)
Cases
Beard v. Kindler,
10, 11, 14

558 U.S. 53 (2009)

Cent. Union Tel. Co. v. City of Edwardsville,
11, 14, 15

269 U.S. 190 (1925)

Coleman v. Thompson,
10

501 U.S. 722 (1991)

Cutter v. Wilkinson,
12

544 U.S. 709 (2005)

Haines v. Kerner,
14

404 U.S. 519 (1972)

Herb v. Pitcairn,
10, 18

324 U.S. 117 (1945)

Herndon v. Ga.,
10, 13

295 U.S. 441 (1935)

John v. Paullin,
11, 14

231 U.S. 583 (1913)

Lee v. Kemna,
534 U.S. 362 (2002)

11

Mullaney v. Wilbur,
15

421 U.S. 684(1975)

iv

Newman v. Gates,
11

204 U.S. 89 (1907)

Ring v. Arizona,
15

536 U.S. 584 (2002)

Tolan v. Cotton,
572 U.S. 650 (2014) (Alito, J„
concurring)...............................

16

Webb v. Webb,
12, 13, 14

451 U.S. 493 (1981)

Statutes
10, 12

28 U.S.C. § 1257(a)

Other Authorities
.passim

Del. Sup. Ct. R. 14

1

Rule 32.3

15, 16

Sup. Ct. R. 10
Sup. Ct. R. 14.1(g)(i)

12

Sup. Ct. R. 33

14

v

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6,
Respondent
Henlopen
Landing
Homeowners
Association, Inc. discloses that it is a non-stock non­
profit corporation, and there is no parent or publicly
held company owning 10% or more of Respondent’s
stock.

vi

COUNTERSTATEMENT OF FACTS
Respondent generally disagrees with Petitioner’s
description
of the factual
and procedural
background of this case. First, Petitioner strays
from, and contests, the facts as stipulated by the
parties or found by the trial court. See, e.g., Pet. 21
(mischaracterizing the court’s findings regarding
Petitioner’s pretextual request), 27-28 (making
unsupported
assertions
about
homeowners’
Second, Petitioner
associations in general),
improperly references facts outside the record. See,
e.g., Pet. 24-26. (listing personal reasons that
Petitioner asserts excuse her default in the
Delaware Supreme Court). But Petitioner has not
moved to expand the record by lodging non-record
material under Rule 32.3; nor would it be proper to
do so when the extraneous materials consist of self­
serving assertions that have not been trial tested.
To this end, Respondent identifies and relies
upon the facts as stipulated by the parties, as found
by the Delaware Court of Chancery at trial, and as
found by the Delaware Supreme Court in its order
dismissing Petitioner’s appeal. For brevity, the
factual and procedural posture is summarized
below.1

1 Petitioner included the Delaware Court of Chancery’s
August 1, 2019, Memorandum Opinion at Tab B of her
Appendix. The October 15, 2020, Order of the Delaware
Supreme Court dismissing Petitioner’s appeal is at Tab A.
Respondent cites to these decisions as “Ch. Op.” and “Dism.

1

A.

Background of the Dispute.

This is a long-running dispute involving the
Henlopen Landing planned community in southern,
coastal Delaware. Petitioner is a homeowner, and
Respondent is the community’s homeowner’s
association.
Ch. Op. 2.
Like many similar
associations, Respondent oversees enforcement of
the community-wide deed restrictions that govern
the community and to which homeowners bind
themselves when purchasing a home in the
community. Id. at 3-4, 6. These restrictions run
with the land and are contained within a written,
recorded document, known as a Declaration. Id. at
3-4. Among other things, the restrictions impose
limitations and standards on improvements, and
variance from the restrictions requires consent from
Respondent. Id. at 4-5.
In 2011, Petitioner sought several variances from
the community’s restrictions. Most of the variances,
such as construction of a gazebo and installation of
an irrigation well, were granted and are immaterial.
Id. at 7, 10.
Three variances are pertinent here.
First,
Petitioner sought to extend the height of her
property’s fence from four to six feet because
Petitioner asserted that her autistic son could scale
a four-foot fence and elope from the family’s yard.
Id. at 7. Respondent’s Architectural Review Board,
Order,” respectively.
Page citations are to the internal
numbering of each decision.

2

or ARB, granted this request shortly after Petitioner
made it; however, for reasons Petitioner never
explained, Petitioner never constructed the taller
fence. Id. at 9, 21.
Second, Petitioner sought a variance in the
placement of her fence so that the fence could
encompass more of the yard than otherwise
permitted and thereby enclose the side entrance to
her garage. Id. at 7-8. At the time, Petitioner
asserted that the family wanted this variance was
“to let [their] dog outside in inclement weather.” Id.
(citing the parties’ pretrial stipulation and joint
exhibits). The ARB denied this request. Id. at 9.
Third, Petitioner sought to widen her driveway.
However, Petitioner’s application did not include
any information on the grading or slope of the
driveway extension, so the ARB deferred decision
until Petitioner submitted that information. Id. at
8-9.
In subsequent communications with the
Respondent’s
property
manager,
Petitioner
requested reconsideration of the fence placement
variance, but again, Petitioner did not identify her
son as the basis for the variance. Id. at 10-11.
Petitioner also indicated that she had, and would
provide, the grading and slope data. Id. at 11.
Further communications between Petitioner and the
property
manager
led
to
a
genuine
misunderstanding about whether the driveway was
ultimately approved by the ARB. Id.
3

Believing the driveway was approved, Petitioner
completed construction of the driveway in August
2011. Id. In reality, the ARB had not received the
requested grading information and had not
approved the driveway. The ARB requested an
engineer’s report confirming that the driveway
would not adversely affect stormwater management.
Id. at 12. The Declaration called for such a report,
but the ARB had not regularly requested one in
other cases.
Id.
In the interim, Respondent
suspended Petitioner’s pool access in August 2011 as
a result of the continuing violation. Id. at 17.
Petitioner submitted the report approximately a
year later in August 2012. Id. at 13.
As the driveway saga escalated, so did the
In November 2011,
parties’ overall dispute.
Petitioner filed a housing discrimination complaint
against Respondent with the Delaware Division of
Human Resources (“DDHR”). Id. at 18. Petitioner
alleged that she and her family were victims of
discrimination on the basis of their race, familial
status, or disability. The complaint was the first
time that Petitioner asserted she sought a fence
placement variance on behalf of her son, rather than
her pet. Respondent had already been preparing for
litigation when it received the complaint. Id. at 32­
33 & n.142 (citing pretrial stipulation and joint
exhibits). It answered the DDHR complaint in
January 2012 and filed its complaint in the Court of
Chancery on February 2012. Id. at 19.

4

B.

Delaware Court
Litigation.

of

Chancery

In its complaint, Respondent alleged that
Petitioner had breached the Declaration through
construction of the driveway and through other
smaller infractions of the Declaration. Ch. Op. 19.
Respondent filed its complaint after the DDHR
proceedings but the parties agreed, and the court
recognized, that the complaint was anticipated and
prepared prior to the DDHR proceedings. Id. at 32­
33 & n.142.
Ultimately, Petitioner mooted
Respondent’s claims by curing the violations of the
Declaration or providing the information requested
by Respondent. Petitioner’s pool access was restored
in 2014, and the Court dismissed Respondent’s
claims as moot, subject to a mootness fee, in 2017.
Id. at 18, 19.
Thus, Respondent became the driver of the
litigation. The proceedings were long and mired in
procedural maneuvers,
including Petitioner’s
unsuccessful attempt to remove the case to federal
court. Id. at 21. The matter finally went to trial in
2019. In advance of trial, the parties stipulated to
numerous facts, and the parties also stipulated as to
the appropriate legal standard, which the court
accepted without independent review. Id. at 22 & n.
126.
At trial, Petitioner relied primarily on her own
testimony, as well as hearsay, to support her claims.
Id. at 20. Although the court found Petitioner
5

sincere in her beliefs, the court concluded that
Petitioner’s account of events was unsupported by
the broader record. Id. For example, Petitioner
misremembered the timehne and other community
members disputed Petitioner’s recollection of
statements and events. See id. at 27. Petitioner also
never offered a clear explanation why she disclosed
her son’s autism in the context of the fence height
request but at the same time, maintained a right not
to disclose it as the basis for the fence placement
request. Id. at 31. Nor did Petitioner explain why,
in seven years, she had not constructed a taller
fence. Id. at 21. And Petitioner abandoned many of
her nebulous claims over the course of the litigation.
See id. at 27 (Petitioner’s abandonment of
discrimination claims); 32 & n. 141 (Petitioner’s
abandonment of retahation claims).
In the end, the Court of Chancery reached an
unremarkable conclusion: Petitioner simply had
failed to prove her case under the legal standard to
which the parties stipulated. Because Respondent
planned this litigation before Petitioner’s DDHR
complaint, and because Respondent’s suit reflected
a good faith attempt to resolve the parties’ on-going
dispute, the litigation did not constitute retaliation
for Petitioner’s complaint. Id. at 33-34. And,
notably,
the ARB had promptly approved
Petitioner’s request for extended fence height,
demonstrating that, when presented with the truth
by Petitioner, the ARB was not hostile to Petitioner
or her family. Id. at 35.
6

Likewise, the court concluded Respondent barred
Petitioner’s pool access based upon a nondiscriminatory reason
Petitioner’s alteration of
the driveway without ARB approval. And Petitioner
failed to show a similarly situated person who was
treated differently. Id. at 26-27.
Lastly, the court concluded that Petitioner’s
request for the fence placement variance was not a
request for an accommodation under the FHA
because Petitioner continuously asserted upon
pretextual reasons for the variance until after she
filed her DDHR complaint. Id. at 29-30. That is,
Petitioner “never requested [that] accommodation
for Pier] son’s autism.” Id. at 30. But, even as the
court ruled against Petitioner’s claims, the court
noted that Petitioner retained the right to pursue
the fence placement variance for the actual reason.
Id. at 31.

C.

Delaware
Dismissal.

Supreme

Court

Petitioner timely appealed to the Delaware
Supreme Court. However, when it came time for
Petitioner to file her opening brief, she submitted a
brief far in excess of the court’s page and word limits.
Dism. Order 1. Delaware Supreme Court Rule 14
limits briefs to 10,000 words or 35 pages. Id. at 1-2.
Petitioner’s brief, by contrast, was 80 pages long.
Upon Respondent’s motion, the court struck
Petitioner’s brief and directed her to file a new,
compliant opening brief. Id. at 2.
7

She did not. Instead, Petitioner filed an even
longer 85-page brief. Id. Despite the increased
length, Petitioner falsely certified that the brief was
within the court’s 10,000 word limit. Id. Petitioner
acknowledges that, in violation of the court’s rules,
she omitted footnotes from her word count. Pet. 24­
25..
The Delaware Supreme Court struck this
second brief, too, but again granted Petitioner leave
to file a compliant brief. Dism. Order 2-3.
At 65 pages, Petitioner’s third brief was shorter,
but still in excess of the court’s limits. Id. at 3. This
time, Petitioner included footnotes but omitted
spacing between words and around punctuation. Id.
For example, she did not include spacing before or
after commas in the brief. The court again granted
Respondent’s motion to strike but again, spared
Petitioner dismissal of her appeal. Id.
In granting Petitioner a final chance, the court
even included a footnote that, using one of
Petitioner’s paragraphs as an example, illustrated
the spacing errors that Petitioner needed to correct
throughout the brief. Id. at 3-4 & n.4. The court also
advised Petitioner that if she submitted another
noncompliant brief, the court would issue a notice to
show cause why her appeal should not be dismissed
for failure to follow the court’s rules. Id. at 3-4.
Despite this, Petitioner filed a fourth non­
compliant brief that again omitted appropriate
spacing and resulted in a misleading word count. Id.
at 4. The court’s clerk struck the brief, and the court
8

issued the notice to show cause. Id. In response,
Petitioner blamed her pro se status, asserted that
her continued non-compliance was inadvertent, and
for the first time, requested an extension of the word
count requirements. Id. Petitioner did not assert
that enforcement of the word count was
unconstitutional in any way.
The Court found that Petitioner had failed to
show cause for her continued non-compliance. Id.
The Court dismissed her appeal and denied her
extension request as moot. Id. at 4-5.
Petitioner moved for reargument and also a
rehearing en banc.
Petitioner’s filings largely
rehashed her responses to the court’s Notice to Show
Cause, and the court denied both motions in
summary fashion. See Pet’r Appx. at A, D. Again,
Petitioner did not raise, and the court did not
address, any constitutional challenge to Delaware
Supreme Court Rule 14 or its application.
Petitioner now seeks review of her case in this
Court.

REASONS FOR DENYING THE PETITION
Petitioner urges this Court to render numerous
advisory opinions about the purpose and application
of federal housing law. But, even if the Court were
otherwise disposed to take up those questions, this
Court lacks jurisdiction to review the decision of the
Delaware Supreme Court. That court’s decision
rested entirely on state law
specifically, it

9

dismissed Petitioner’s appeal after she repeatedly
refused to file a brief within the page and word limits
prescribed by the Court’s rules. Petitioner did not
challenge that decision as unconstitutional below,
and she is precluded from doing so now. In any
event, this case is a poor vehicle to address any of
the questions presented by Petitioner. Accordingly,
this Court should deny the petition.

A.

This Court lacks jurisdiction over
this case because the Delaware
Supreme Court’s decision rested
solely upon state law.

Although this Court is empowered to review
judgments of “the highest court of a State,” that
review is limited to state decisions involving a
federal question. 28 U.S.C. § 1257(a) “[I]n the
partitioning of power between the state and federal
judicial systems,” this Court’s “only power over state
judgments is to correct them to the extent that they
incorrectly adjudge federal rights.” Herb v. Pitcairn,
324 U.S. 117, 125-26 (1945).
Absent unusual
circumstances not asserted here, this Court will not
review a state court judgment that “rests on a state
law ground that is independent of the federal
question and adequate to support the judgment.”
Coleman v. Thompson, 501 U.S. 722, 729 (1991).
This jurisdictional bar applies regardless of
whether the state law grounds are procedural in
nature. Beard v. Kindler, 558 U.S. 53, 60 (2009);
Herndon v. Ga., 295 U.S. 441, 443 (1935). More than
10

a century of this Court’s decisions demonstrate that
a procedural default at the state appellate level
precludes review by this Court if the procedural
default prevented the state’s highest court from
“actually or constructively” reviewing “[the] Federal
question” presented by the appellant. Newman v.
Gates, 204 U.S. 89, 95 (1907). See also Cent. Union
Tel. Co. v. City of Edwardsville, 269 U.S. 190, 195
(1925); John v. Paullin, 231 U.S. 583, 587 (1913).
Nor does it matter if the underlying procedural rule
is discretionary. Beard, 558 U.S. at 60. In short,
“violation of ‘firmly established and regularly
followed’ state rules. . . will be adequate to foreclose
review of a federal claim.” Lee v. Kemna, 534 U.S.
362, 376 (2002) (quoting James v. Kentucky, 466 U.S.
341, 348 (1984)).
That is the situation presented here. In the
Delaware Supreme Court, opening briefs are limited
to 10,000 words or, if filed by an unrepresented party
without access to a word processor, 35 pages. Del.
Sup. Ct. R. 14(d)(1), (hi). The court gave Petitioner
three opportunities over six months, yet Petitioner
never submitted a brief within the word hmits or
shorter than 65 pages. In giving Petitioner a fourth
and final opportunity, the court provided Petitioner
specific guidance how to correct her mistakes, and
the court warned Petitioner that dismissal could
result if she submitted a fourth deficient brief.
When Petitioner submitted another non-compliant
brief, and failed to show cause for doing so, the court
dismissed her appeal for violating Rule 14(d).
11

Petitioner asserts that this Court has jurisdiction
to review the Delaware Supreme Court’s decision
under 28 U.S.C. § 1257(a). Pet. ix. But the Delaware
Supreme Court did not base its decision upon any
federal right asserted by Petitioner. Rather, the
Delaware Supreme Court dismissed Petitioner’s
appeal for her procedural default of a state rule.
This Court, therefore, lacks jurisdiction to review
the decision and should deny the petition.

B.

Petitioner has also forfeited her
right to
challenge
Delaware
Supreme Court Rule 14, or its
application, in this Court because
Petitioner did not raise the issue in
the Delaware Supreme Court.

This Court is “a court of review, not first view,”
Cutter v. Wilkinson, 544 U.S. 709, 718 n.7 (2005), so
this Court “has consistently refused to decide federal
constitutional issues raised here for the first time on
review of state court decisions.” Webb v. Webb, 451
U.S. 493, 499 (1981) (internal quotations and
See Sup. Ct. R. 14.1(g)(i)
citation omitted).
(requiring petitioners to identify where issues were
raised in the record of the courts below).
Petitioner did not fairly argue that Rule 14 or its
application was unconstitutional in her responses to
the Delaware Supreme Court’s deficiency notices or
the court’s Rule to Show Cause.
That failure
forecloses Petitioner’s effort to raise those issues
now.
12

At most, Petitioner vaguely referenced a
“constitutional right to be heard” in one sentence on
page 2 of her “Motion for Rehearing En Banc Under
Rule 4(F) of the Court’s 10/15/20 Order Dismissing
Appeal. But Petitioner never asserted that the
purported right was a federal right rather than a
state right. Such passing reference is insufficient to
present or preserve a federal issue.
In Webb, for example, the petitioner contended
that the Georgia Supreme Court failed to give full
faith and credit to a Florida child custody decision.
451 U.S. at 494. The petitioner used the phrase “full
faith and credit” in the state proceedings. Id. at 496.
But she never cited a federal statute or
constitutional provision; it was plausible she was
referencing provisions from a state statute; and the
Georgia Supreme Court decided the case without
addressing a federal issue. Id. at 497-98. Because
the federal question had not been raised
appropriately in the state proceedings, this Court
concluded it had no jurisdiction to address the
petitioner’s claim in the first instance. Id. at 501-02.
The same result is called for here, too.
If that were not enough, Petitioner’s passing
reference also came too late. Raising an issue only
after dismissal is insufficient to preserve the issue
for this Court’s review. “[T]he attempt, to raise a
federal question after judgment, upon a petition for
rehearing, comes too late, unless the court actually
entertains the question and decides it.” Herndon,
295 U.S. at 443. See also Webb, 451 U.S. at 501 &
13

n.4. As with its primary decision, the Delaware
Supreme Court also denied Petitioner’s two post­
dismissal motions without addressing any federal
questions. Accordingly, this Court lacks jurisdiction
to consider those claims in the first instance now.
Regardless, Petitioner’s argument does not merit
granting the petition. “Without any doubt it rests
with each state to prescribe the jurisdiction of its
appellate courts, . . . and the rules of practice to be
applied in its exercise,” even “when federal rights
are in controversy....” Paullin, 231 U.S. at 587. See
City of Edwardsville, 269 U.S. at 195. There is
nothing novel, arbitrary or irrational about a court
setting or enforcing page or word limits for appellate
briefs. Neither Petitioner’s pro se status, nor any
other reason she has identified, render page and
word limits unconstitutional.
The cases that
Petitioner cites addressing pleading standards, such
as Haines v. Kerner, 404 U.S. 519, 520, (1972), have
no import at the appellate level, much less here. The
pertinent parts of Rule 14 were enacted in 2016, and
Petitioner had fair
notice
and numerous
opportunities to comply. And, this Court has refused
to “disregard state procedural rules that are
substantially similar to those to which” federal
courts “give full force.” Beard, 558 U.S. at 62.
Compare, e.g., Del. Sup. Ct. R. 14(d) (setting word
and page limits for briefs) with Sup. Ct. R. 33 (same).
Instead of making a constitutional argument
below, Petitioner contended, among other things,
that the court should excuse her deficient briefs
14

because she represented herself and because Rule 14
did not expressly require spacing between words or
following commas.
Petitioner makes those
arguments here, too, even as Petitioner refuses to
acknowledge the leniency, guidance and chances
that the court below extended to her.
Again, however, Petitioner’s issues are simply
not reviewable. What Rule 14 expressly or impliedly
requires is also an issue of state law — and outside
of this Court’s jurisdiction — so long as the rule is
not “so unfair or unreasonable in its application to
those asserting a federal right as to obstruct it.” City
of Edwardsville, 269 U.S. at 195. See also Ring v.
Arizona, 536 U.S. 584, 603 (2002) (recognizing that
a State’s high court’s “construction of the State’s own
law is authoritative”); Mullaney v. Wilbur, 421 U.S.
684, 691 (1975). Even if Petitioner had not forfeited
her claims regarding Delaware Supreme Court Rule
14, the claims would not provide a basis for this
Court’s review.
As such, this Court should deny the petition on
this ground, too.
C.

This case is a poor vehicle to
consider the questions presented
in the petition.

“Review on a writ of certiorari is not a matter of
right, but of judicial discretion^” to be exercised
“only for compelling reasons.”
Sup. Ct. R. 10.
Certainly, housing discrimination is a serious issue,
especially for the classes of persons protected by the
15

FHA. And Petitioner’s passion for her cause is clear
from her petition. But even if this Court had
jurisdiction to address the broad questions that
Petitioner presents, several factors make this case a
poor vehicle for answering those questions.

First, error correction is not a basis for a grant of
certiorari. A writ of certiorari is rarely warranted
when a petitioner primarily seeks review of factual
findings or the application of a properly stated legal
rule. See Sup. Ct. R. 10. See also Tolan v. Cotton,
572 U.S. 650, 661 (2014) (Alito, J., concurring)
(“[E]rror correction. . . is outside the mainstream of
the Court's functions and. . . not among the
‘compelling reasons’. . . that govern the grant of
certiorari”) (quoting S. Shapiro, et al., Supreme
Court Practice § 5.12(c)(3), p. 352 (10th ed. 2013)
(alterations in original)).
Although Petitioner
presents a plethora of legal questions, Petitioner’s
brief largely rehashes the factual and procedural
background and notes points of disagreement with
the trial court. And Petitioner identifies no decisions
of other states or of federal appellate courts that
reached different conclusions based upon similar
facts. Had Petitioner not forfeited her right to seek
review in this Court, review would nonetheless be
unwarranted.

Second, the record below does not present the
legal questions Petitioner poses.
Contrary to
Petitioner’s contentions, the trial court did not
decide an important question of federal law or
deviate from established federal law. Rather, the
16

parties stipulated to the elements of Petitioner’s
federal claims in their pretrial order, and the Court
of Chancery “accepted [the] stipulation, without
independently confirming its accuracy.” Ch. Mem.
Op. at 22, n.126. Even if the Court of Chancery
reached the wrong conclusion or misapplied the law,
the court did so in the unique context of a stipulated
legal standard, not the context of broader federal
law. And below, Petitioner abandoned many of the
arguments that she improperly seeks to resurrect
here.
For example, in her post-trial briefing,
Petitioner
only
identified
one
allegedly
discriminatory act — suspension of pool access — as
being supported by trial evidence; Petitioner waived
all of her other earlier prior arguments. Ch. Op. 23,
27. These unusual circumstances do not present an
opportunity to clarify the law or to guide lower
courts.

Third, and relatedly, the factual record precludes
clean consideration of the legal issues Petitioner
presents. Petitioner’s lengthy attempt to reargue
the factual record, and her insertion of facts outside
the record, undercuts her conclusory assertion that
the record is clean and the facts undisputed. Among
her
several
questions,
Petitioner
seeks
determinations of what information a person must
disclose when requesting an accommodation under
the FHA.
More specifically, Petitioner seeks a
determination of whether a person may refuse to
disclose a disability, or may offer a pretextual
reason, in seeking an accommodation request so as
17

to preserve the requestor’s sensitive information.
Pet. v, 13, 31. But this record however, does not
allow consideration of those issues.
Petitioner identified her son’s autism when
requesting a variance for extended fence height, yet
in the same application, Respondent identified her
dog as the reason for requesting a variance for fence
placement. Assuming that Petitioner’s son was the
reason for both requests, Petitioner never offered a
cogent explanation why she identified a pretextual
reason for one request but not the other. Because
Petitioner actually disclosed her son’s disability to
Respondent, this case does not present an
opportunity for the Court to consider whether the
FHA permitted Respondent to withhold that
information when requesting an accommodation.

Finally, many of the questions presented by
Petitioner seek improper advisory opinions. Just as
this Court does not review questions of state law,
address issues not raised below, or engage in error
correction, this Court also refuses to offer advisory
opinions on issues that would not affect the outcome
of a case. This Court’s “power is to correct wrong
judgments, not to revise opinions.” Herb, 324 U.S.
at, 125-26.
Because of Petitioner’s procedural
default, a ruling on the federal questions presented
by Petitioner would not change the outcome of
Petitioner’s case.
But even past that, the Court of Chancery
determined that Petitioner did not make a request
18

for an accommodation under the FHA. Because
Petitioner did not make a request, the record does
not support any determination regarding what the
FHA requires in response to a request.
For all of these reasons, this case presents a poor
vehicle for addressing any of the questions raised by
Petitioner.
CONCLUSION
The Court should deny the petition for writ of
certiorari.
Respectfully submitted,
David C. Hutt

Counsel of Record
R. Eric Hacker
Morris James LLP
107 W. Market Street
Georgetown, DE 19947
(302) 856-0015
dhutt@morrisjames.com

Counsel for Respondent
Henlopen Landing
Homeowners Association, Inc.
May 12, 2021

19

